Certificate of Service
7/26/2019
Herewith are 40 of the paperbooks
No.
In the

Supreme Court of the United States
THOMAS P. KELLY, JR., PETITIONER,
v.

RELIANCE STANDARD LIFE INSURANCE COMPANY AND
THE PENN MUTUAL LIFE INSURANCE COMPANY
PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner
indicated below. Service by first-class mail addressed as follows:
Mee Sun S. Choi, Esq.
McElroy Deutsch Mulvaney
& Carpenter
1300 Mount Kemble Avenue
P.O. Box 2075
Morristown, NJ 07962

Joshua Bachrach, Esq.
Wilson Elser Moskowitz Edelman
& Dicker
2001 Market Street
Two Commerce Square, Suite
3100
Philadelphia, PA 19103

Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

